 Office of the Inspector General





                 Audit of Farm Credit Administration

                    Records Management and




                                                

               Preservation of Institutional Knowledge


February 21, 2006                                   Audit Report 05-03
                   Audit Objective




                                                   

To determine whether the Agency has an adequate
process for capturing, maintaining and sharing
institutional knowledge.
    Is there a process for capturing and maintaining knowledge?
    Is the process for capturing and maintaining information
     adequate?
    Is information maintained relevant and useful?

    Is there a mechanism that facilitates the sharing of institutional
     knowledge?

We conducted our audit from August to December 2005.
The audit was conducted in accordance with Government Auditing
Standards.                                                    2
                       Audit Importance


         Effective Records             Effective Records
         Management Increases:         Management Decreases:



The Agency’s ability to understand     Costs by eliminating redundant
problems; plan strategically;          or unnecessary processes.
and make informed decisions.
                                       Time in meetings, making
Teamwork and collaboration.            phone calls and sending e-mails.

Productivity and efficiency.           Compartmentalization of
                                       information.
The sharing of corporate knowledge.
                                       Response time on making decisions.
Achievement of the Agency’s mission.




                                                                            3

        Audit Scope




                        

205 Recordkeeping Systems




    104                      101
  Database                   Hard
  Systems                    Copy
                             Files




                                     4
                           Background

	 Policy and Procedures Manual (PPM) 903 Records
    Management: This PPM sets forth the records management
    responsibilities of employees, managers and the records officers;
    briefly describes the records management program; and contains
    basic records management policy guidance applicable to all FCA
    employees.
	 Form 423–Certification of Removal of Copies of Records: Prior
    to terminating employment with the Agency, employees must read
    and complete the certification. This certification is completed to
    ensure that departing employees do not remove, or have permission
    to remove from the Agency, nonrecord materials.
     	   Nonrecord materials are, for example, extra copies of Federal
          records, and drafts of memos and letters that do not represent
          significant steps in the official evidence of Agency actions.
     	   Official records may not be removed or destroyed by a departing
          employee.
    Records Retention Directive: Listing of records maintained by         5
    central files and a listing of files maintained by each office.
         Capturing Knowledge
       Is there a process for capturing and
              maintaining knowledge?
 Are policies and procedures in place?


 Are staff aware of their responsibilities?


 Are controls established?


 Is there a mechanism that promotes the ongoing




                                                   

  consideration of new strategies for capturing and
  maintaining information?




                                                       6
           Capturing Knowledge

Policies and procedures have been established for
records management.
    Accessible by all employees on Lotus Notes Database.


    Defines what is considered a Federal record.


    Outlines employees responsibilities.


    Addresses record retention and disposal.





                                                             7
           Capturing Knowledge

Staff recordkeeping responsibilities are
emphasized.
   	 Published articles in FCA This Week on records




                                                       

     management.


   	 Records management staff periodically meet with employees
     to discuss records management responsibilities.

   	 Records management staff available to answer employee’s
     questions.




                                                                8
            Capturing Knowledge
Controls have been established to assist in
capturing knowledge.
    Internal Control Program ensures documents are:

         received by central files.

         easily retrieved.

         disposed of according to retention requirements.




                                                             9
                Capturing Knowledge

Controls could be strengthened to ensure all
employees certify they are not removing any
nonrecord materials upon leaving the Agency.
   Prior to leaving the Agency, employees must sign a
   certification for removal of records as part of the check-
   out process.
    	   The records officer signs off on the employee’s check-out form acknowledging they
         have received the certification.
    	   The employee’s checkout form is received by payroll/personnel for final review prior to
         an employee leaving the Agency.
    	   We compared a listing of employees who left the Agency to the nonrecord removal
         certifications forms completed from October 2003-2005.
    	   Generally, employees were completing nonrecord removal certification (92% had
         completed the nonrecord removal certification forms).
    	   However to strengthen controls, the Office of Management Services should ensure
         that the employee’s check-out record form be thoroughly reviewed and fully
         completed with all required signatures prior to the employee leaving the Agency.
                                                                                              10
           Capturing Knowledge

Increased use of electronic processes requires new
strategies for maintaining information.
  Generally, the Agency’s recordkeeping is focused on a “print
   to paper” approach for maintaining records.

  In coming years automated systems and processes will largely
   replace paper-based systems and processes.

  Recordkeeping practices that existed in the paper environment
   may be ignored in transition to electronic business
   environments.

  With the rapid advances and significant growth in business
   being conducted through e-mail traffic and on-line services, the
   Agency must examine ways to capture information in less of a
   paper-based system.                                            11
Maintaining Information

         Is the process for maintaining




                                               

              information adequate?


 Is the process for developing recordkeeping systems
  adequate?

 Is the Agency adequately assessing its recordkeeping
  needs and developing new processes for maintaining
  information?

 Is there a process to ensure the ongoing relevance and
  usefulness of stored information?



                                                         12
        Maintaining Information

The Information Resource Management Plan is a
good process for recordkeeping systems
development.

 End-users involvement in developing recordkeeping systems
  enhance information use.

 Cross-functional collaboration between technical experts,
  management and staff.

 Increases mission-focus system designs.
 Decrease databases being compartmentalized.

                                                              13
      Maintaining Information

The Agency needs to assess its recordkeeping
needs.
  During our review we identified 205 recordkeeping systems.
  Our review of various recordkeeping systems found:
      A couple of databases were developed and never used (e.g. telework survey,
       OCOO Strategic Plan comments).
      Some databases were being used for critical Agency functions but were not
       being managed as official Agency recordkeeping systems (e.g. ORP economic
       databases).
      Some databases receive an onslaught of information regularly making them
       difficult to manage (e.g. OE institutional database).

  In addition, there is no real grasp on records that are being
   developed on various offices’ shared drives and employee’s
   personal workspaces.
                                                                                    14
            Maintaining Information

An assessment of the Agency’s business needs
from an office level and organizational level will
help the Agency identify “what information is
needed”.
 The assessment should include the following:
      A complete inventory of the Agency’s existing record systems.

      Identification of essential records that must be maintained and shared.

      Duplication of information.

      Systems that might be replaced by a new record system.

      Senior management and operational staff perspective on what records should be
       maintained.
      Gaps in records accountability.
      Recordkeeping strengths.

                                                                                       15
              Maintaining Information

The Agency has a process in place that can help
ensure information maintained remains relevant
and useful.
   The Agency has a centralized records management staff
   and a liaison person within each office responsible for
   maintaining Agency records.

   The centralized records management staff completes
   annual reviews on the Agency’s records. The reviews
   include:
     	   Making sure required documents are being forwarded to central files.
     	   Ensuring that documents are destroyed or sent to permanent archive according
          to retention periods.
     	   Identifying changes in filing systems (e.g. paper to electronic).


                                                                                         16
         Maintaining Information

Annual reviews could be expanded to also
include the following.
	 As part of the annual review, records management staff and
  their liaisons should also be reviewing recordkeeping systems
  for their usefulness and relevance.
	 In addition, senior management and operational staff should




                                                                             

  be queried on what information is needed.

   	   Senior mangers can provide a broader perspective on particular records
        they would like to see created and kept.
   	   Operational staff are a valuable source for identifying more specific
        business practices and what information is needed, what’s valid and what
        should be shared.


                                                                                 17
    Knowledge Sharing
     Is institutional knowledge being
              shared within FCA?

	 Does the Agency make the best use of human
  capital intellect (e.g. best practices, lessons
  learned)?

	 Does the Agency stimulate knowledge sharing?




                                                    18
              Knowledge Sharing

The Agency needs to reinforce the importance of
sharing human capital intellect.
   	 In upcoming years the Agency may lose valuable
     corporate knowledge due to retirements and attrition. This
     can have a crippling effect on the Agency’s effectiveness.

   	 The Agency is continually changing through restructuring,
     shared services and the increasing use of information
     technology. In this context, the Agency must focus on
     preserving information needed to support the delivery of
     programs and services.

   	 The trend in government today is that employees do not
     stay at the same agency as once was the norm. It is
     important to capture employees’ know how and know
     what.                                                        19
            Knowledge Sharing

A Knowledge Management Steward can improve
Agency operations by:
   	 Preserving the expertise of departing employees.

   	 Helping the Agency gain understanding from its
     experiences.

   	 Improving the Agency’s ability to solve problems and plan
     strategically.

   	 Encouraging innovation and new ideas.




                                                                  20
                    Conclusion

	 Policies, procedures and controls have been established for
  capturing information. However, policies and procedures
  need to be continually reexamined to develop new approaches
  for capturing information, particularly approaches using
  electronic applications.

	 A successful recordkeeping system should be focused toward
  high quality content. The Agency must ensure information
  maintained is relevant and useful.

	 With the continuous changes to the Agency’s business
  environment, FCA needs to develop a strategy to assess its
  internal and external operating environment and ensure the
  appropriate corporate knowledge or information is being
  captured, maintained and shared.
                                                                 21
                 Agreed Upon Actions

1.	    The Office of Management Services should determine whether the Agency needs a
       Knowledge Management Steward.
2.	    The Office of Management Services should perform an Agency-wide assessment of
       recordkeeping systems. The review should include, for example:
      a.	   A listing of all Agency recordkeeping systems including those on shared drives and
            personal workspaces.
      b.	   Identification of essential records that must be maintained based on:

                Legal and governmental requirements

                Interviews with Agency staff.

      c.	   Determination on whether any systems are duplicative and recommendations on how
            systems could be combined.
      d.	   Identification of information with restricted access that should be shared.
      e.	   Recommendations for systems that could be replaced or combined by new record
            system (e.g. paper-based filing systems to electronic).
      f.	   Strategies for capturing information that use electronic applications (e.g. e-mails and
            on-line services).
3.	    The Office of Management Services should explore strategies to promote knowledge
       sharing.
4.	    The Office of Management Services should strengthen controls for the nonrecord removal
       certification process.                                                             22
